                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Early Warning Report:
                     Main EPA Headquarters
                     Warehouse in Landover,
                     Maryland, Requires
                     Immediate EPA Attention
                     Report No. 13-P-0272                    May 31, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                                Robert Adachi
                                                      Angela Bennett
                                                      Safiya Chambers
                                                      Debra Coffel
                                                      Kevin Collins
                                                      Teren Crawford
                                                      Nancy Dao
                                                      Michael D. Davis
                                                      Kevin Haas
                                                      Iantha Maness
                                                      John Trefry




Abbreviations

EPA              U.S. Environmental Protection Agency
OIG              Office of Inspector General


Cover photo:		     Various photos at the EPA warehouse operated by a contractor in Landover,
                   Maryland. Clockwise, from left: an outside view of the warehouse; a cubicle
                   space at the warehouse for personal use; an exercise area at the warehouse; and
                   passports stored at the warehouse in unprotected space. (EPA OIG photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                        write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                       1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                         Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                   Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              13-P-0272
                                                                                                          May 31, 2013
                        Office of Inspector General


                        At a Glance


Why We Did This Review              Early Warning Report: Main EPA Headquarters Warehouse
                                    in Landover, Maryland, Requires Immediate EPA Attention
The U.S. Environmental
Protection Agency leases a           What We Found
warehouse in Landover,
Maryland, to store inventory for    Our initial research at the EPA’s Landover warehouse raised significant concerns
its headquarters locations.         with the lack of agency oversight of personal property and warehouse space at
The inventory ranges from           the facility. In particular:
sensitive items such as
personally identifiable                 The warehouse recordkeeping system was incomplete and inaccurate.
information, including                  The warehouse was filled with considerable valuable amounts of unusable,
passports, to computers and                inoperable and obsolete furniture and other items.
other electronic equipment to           The warehouse contained multiple unauthorized and hidden personal
basic personal property such               spaces that included such items as televisions and exercise equipment.
as paper and office furniture.         		 Numerous potential security and safety hazards existed at the warehouse,
We are conducting an audit to              including unsecured personally identifiable information (such as
determine the extent to which
                                           passports).
the EPA’s personal property
                                       		 Deplorable conditions existed at the warehouse; corrosion, vermin feces,
stored in select warehouse
                                           mold and other problems were pervasive.
spaces is effectively utilized,
accounted for and disposed of       As a result of the conditions noted, EPA property at the warehouse was
by the EPA. As a result of our      vulnerable to theft and abuse (including personally identifiable information),
warehouse visits, we are            EPA property was not properly maintained, the EPA may not have received
issuing this early warning report   sufficient value for the funds it paid for the warehouse’s operation, and
on our concerns at the              warehouse workers were subjected to unsafe conditions for which the EPA could
Landover warehouse because          be held liable.
they require immediate
attention.                           Agency Corrective Actions
This report addresses the           Subsequent to our briefing to the agency on the conditions noted at the
following EPA Goals or              warehouse, the agency issued a stop work order to the contractor, ensuring there
Cross-Cutting Strategies:           will be no further access to the site by contractor personnel and that no further
                                    costs will be incurred under the contract. Further, the agency has taken the
 Strengthening EPA’s               following additional actions:
  workforce and capabilities.
                                        Completed an inventory of the warehouse and is seeking an appraisal of
                                         inventoried items.


                                        Identified and segregated all surplus furniture. 

For further information, contact        Reviewed background investigations on warehouse employees.


our Office of Congressional and         Removed flammable materials from the warehouse. 

Public Affairs at (202) 566-2391.       Performed a health and safety review. 

                                        Reviewed security footage. 

The full report is at:
www.epa.gov/oig/reports/2013/       The agency also agreed to initiate action addressing personally identifiable
20130531-13-P-0272.pdf              information, completing standard operating procedures for the warehouse,
                                    developing security plans, and conducting an agencywide review of all
                                    warehouse and storage facility operations.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL




                                              May 31, 2013

MEMORANDUM

SUBJECT:		 Early Warning Report:
               Main EPA Headquarters Warehouse in Landover, Maryland,
               Requires Immediate EPA Attention
               Report No. 13-P-0272

FROM:		        Arthur A. Elkins Jr.

TO:		          Craig Hooks, Assistant Administrator
               Office of Administration and Resources Management

The Office of Inspector General is conducting an audit to determine the extent to which the
U.S. Environmental Protection Agency’s personal property stored in select warehouse spaces is
effectively utilized, accounted for and disposed of by the agency (Project No. OA-FY13-0248). This
early warning report provides information obtained during our review at the Landover facility. While we
continue our ongoing audit of select warehouse spaces, we believe the agency should immediately
address the issues at the Landover facility discussed in this early warning report.

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. Your response will be posted on the OIG’s public website, along with our
comments on your response. Your response should be provided in an Adobe PDF file that complies with
the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as amended. If your
response contains data that you do not want to be released to the public, you should identify the data for
redaction. You should include a corrective actions plan for agreed-upon actions, including milestone
dates. We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you have any questions, please contact Richard Eyermann, acting assistant inspector general for the
Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov; or Mike Davis, director for efficiency
audits, at (513) 487-2363 or davis.michaeld@epa.gov.
Introduction

            The U.S. Environmental Protection Agency leases a warehouse in Landover,
            Maryland, to store inventory for its headquarters locations. The warehouse is
            owned by the U.S. General Services Administration but is operated by a
            contractor under a contract awarded May 3, 2007. The inventory ranges from
            sensitive items such as computers and other electronic equipment to basic
            personal property such as letterhead paper and office furniture. The facility has a
            lease cost of approximately $750,000 per year. The 70,000-square-foot leased
            facility represents one of the agency’s largest warehouses. This early warning
            report conveys significant, time-critical issues to the EPA management regarding
            the Landover warehouse found during our initial research at the facility that we
            believe require immediate attention.

Conclusion
            Our initial research at the EPA’s Landover warehouse raised significant concerns
            with the lack of agency oversight of personal property and warehouse space at the
            facility. EPA management confirmed they had not visited the warehouse before
            the Office of Inspector General briefed the agency over concerns with poor
            oversight of the storage facility. According to Office of Management and Budget
            Circular A-123, Management’s Responsibility for Internal Control, internal
            controls should be designed to provide reasonable assurance regarding prevention
            and prompt detection of unauthorized use or disposition of assets. However, we
            noted the following issues regarding the warehouse:

                  The warehouse recordkeeping system was incomplete and inaccurate. 
                  The warehouse was filled with considerable amounts of unusable,
                   inoperable and obsolete furniture and other items. 
                  The warehouse contained multiple unauthorized and hidden personal
                   spaces that included such items as televisions and exercise equipment. 
                  Numerous potential security and safety hazards existed at the warehouse,
                   including unsecured personally identifiable information (such as passports). 
                  Deplorable conditions existed at the warehouse; corrosion, vermin feces,
                   mold and other problems were pervasive. 

            As a result of the conditions noted, EPA property at the warehouse was vulnerable 

            to theft and abuse (including personally identifiable information), EPA property 

            was not properly maintained, the EPA may not have received sufficient value for 

            the funds it paid for the warehouse’s operation, and warehouse workers were 

            subjected to unsafe conditions for which the EPA could be held liable. 


            The conditions described required immediate attention. 

            On May 16, 2013, we briefed the agency on the warehouse conditions 

            (http://www.epa.gov/oig/reports/2013/20130531-13-P-0272_briefing.pdf). 

            Subsequent to our briefing, the agency took or initiated a number of corrective 



13-P-0272                                                                                         1
            actions. This included issuing a stop work order to the contractor. The agency’s
            response is in appendix A. Details on what we found follow.

            1. 	 Inventory Record System

            The warehouse recordkeeping system is incomplete and inaccurate. The system
            does not accurately reflect the contents, condition, location or dollar value of the
            new or surplus items stored in the warehouse. The OIG tested 11 items from the
            inventory system identified as located in the cage (the secured area for sensitive
            items), and found the following for six of the 11 items:

                ●		 Four items in the inventory system were not located in the cage.
                ●		 One item had an incorrect quantity.
                ●		 One item had an incorrect serial number.

            We also noted many additional items stored in the cage that were not on the
            inventory report, such as new desktop computers purchased in 2005 and boxes of
            archived records. Further, we found high value items outside the cage that should
            have been secured, such as portable refrigeration units.   




            From left: a photo of the cage; items recorded with incorrect serial numbers; and
            high value items (portable refrigeration units) outside the cage. (EPA OIG photos)

            2.	 Warehouse Contents

            The warehouse is operating as a long-term storage facility filled with considerable
            amounts of unusable, inoperable and obsolete furniture and other miscellaneous
            items. There is not efficient rotation of paper stock, resulting in outdated,
            damaged and unusable paper and print shop materials. In addition, most of the
            warehouse space did not appear to be efficiently used. Our observations raised
            concerns about the efficiency of EPA’s policy for obtaining and storing property.
            In particular, we observed:

                ●		 New appliances received in 2007 still in the original packaging that had
                    never been opened.
                ●		 New, unused furniture received in 2008.
                ●		 Large amounts of carpet and ceiling tiles.
                ●		 Large amounts of stationery and office supplies.


13-P-0272                                                                                          2
            Other miscellaneous items stored in the warehouse that call in to question the
            effectiveness of the EPA’s personal property and warehouse management policies
            and processes include musical instruments, boxes of gold embossed EPA mugs,
            and archive files from the 1990s.

         




            From left: refrigerators received in 2007; pianos; and boxes of letterhead. (EPA OIG photos)


            3. Personal Use Items

            The warehouse contained multiple unauthorized and hidden personal spaces created
            by and for the workers that included televisions, refrigerators, radios, microwaves,
            chairs and couches. These spaces contained personal items, including photos, pin ups,
            calendars, clothing, books, magazines and videos. The unauthorized personal spaces
            were arranged so that they were out of sight of security cameras through the use of
            screens, partitions and piled-up boxes.




            Photos showing examples of unauthorized personal spaces. (EPA OIG photos)



13-P-0272                                                                                                  3
            The warehouse contained surplus gym equipment arranged to create exercise
            space for warehouse employees. The weights, machines, exercise equipment, and
            overall exercise area appeared to be well maintained. The exercise space was in
            excess of 30 by 45 feet. Carpet tiles from EPA inventory were placed on the floor
            in the gym area. This area has electrical power through an EPA power strip and
            provides music through other agency inventory items. Agency steno pads were
            used for recording workouts. These conditions raise questions about time charges
            made by warehouse employees under the contract. These conditions also present
            potential fire and insurance hazards if warehouse employees or others get hurt.




            An example of a gym area in the warehouse. (EPA OIG photo)


            4. Security and Safety Issues

            The warehouse was not adequately maintained. Potential security and safety
            hazards existed in the warehouse. The current conditions left warehouse contents
            vulnerable to theft and abuse and can jeopardize the health and safety of workers.

            There were unsecured racks (shelves) and poorly balanced inventory items that
            hung over the upper edges of the racks. Many items were unsecured on pallets with
            their bindings removed, and many boxes on pallets were open. Personal spaces
            were powered by multiple electrical cords that may cause overloads, resulting in
            potential fire hazards. Propane was stored and trucks were parked inside the
            building. Other vehicles containing gasoline were being stored in an enclosed area.

            Surplus computers stored at the warehouse represent potential concerns with the
            disposal procedures for such electronic items. Limited camera coverage
            throughout the facility could allow employees to avoid monitoring. There was a
            locked office inside the facility for which we could not determine a purpose.
            Personally identifiable information and agency sensitive files – such as passports
            and legal files – were located in unsecured open boxes throughout the warehouse.
            Old archived files located in the warehouse dated back to 1992 and raise concerns
            with the EPA’s processes and controls for personal property and warehouse space.



13-P-0272                                                                                    4
      From left: safety risks posed to personnel in the warehouse include wooden pallets with boxes hanging
      over the edge of shelves, and unbound and opened boxes still on pallets that are beginning to collapse;
      security risks include improper handling of passports. (EPA OIG photos)



               5. General Warehouse Conditions

               Deplorable conditions existed in the warehouse. Door jambs were corroded;
               dirt, dust and vermin feces were pervasive; and several items were rotting and
               potentially hazardous. We observed refrigerators with mold, and old computer
               bags molding and rotting. The warehouse contained large amounts of surplus
               items and copy paper stored in different places throughout the warehouse.




             From left: an example of corrosion; dusty and opened boxes; and moldy computer bags.
             (EPA OIG photos)




13-P-0272                                                                                                       5
Agency Corrective Actions

            Subsequent to our briefing to the agency on the conditions noted at the
            warehouse, the agency issued a stop work order to the contractor, ensuring
            there will be no further access to the site by contractor personnel and that no
            further costs will be incurred under the contract. Further, the agency has taken
            the following additional actions:

               		 Completed an inventory on the contents of the warehouse and is
                   working on getting the inventory appraised.
                Identified and segregated all surplus furniture.
                Reviewed background investigations on warehouse employees.
                Removed flammable materials, including propane tanks, from the
                   warehouse.
                Performed a health and safety review, and began to develop a
                   remediation plan to eliminate security and safety issues.
                Reviewed security footage for May 17, 2013, and the 7 preceding days.

            The agency has also committed to completing the following tasks:

               		 Identify any potential breaches of personally identifiable information
                   located in the warehouse.
               		 Complete standard operating procedures in various areas of warehouse
                   operations, including the identification or designation and safeguarding
                   of records and personally identifiable information.
                Develop security plans on both internal and external measures.
                Conduct an agencywide review of all warehouse and storage facility
                   operations.

            We are encouraged by the speed and depth of the actions taken by the agency
            to address the conditions at the warehouse. We believe that the agency should
            evaluate their warehouse needs to determine the correct space and resource
            requirements. The agency should also implement procedures to ensure that the
            conditions are not repeated in the future. In particular, agency personnel,
            including senior management, should conduct periodic inspections of
            warehouse operations to ensure propriety.




13-P-0272                                                                                      6
                                                                                                                          Appendix A
                              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                     WASHINGTON, D.C. 2046 0




                                                             MAY 2 3 2013
                                                                                                                         OFFICE OF THE
                                                                                                                        ADMINISTRATOR


MEMORANDUM

SUBJECT:          Conditions at the U.S. Environmental Protection Agency's Warehouse in Landover,
                                                                                      A~    . A.~ 11 ~
FROM:
                  Maryland 	
                  Bob Perciasepe, Acting Administrator                  {!; ;{J ~-                      1


TO:               Arthur A. Elkins, Jr., Inspector General

I wish to thank you and your staff for bringing to my attention the conditions at the U.S. Environmental
Protection Agency 's warehouse in Landover, Maryland. Given the significance of the issues raised by
the Office ofinspector General in a preliminary briefing to me on May 15,2013, and in a second
briefing to Nanci Gelb, principal deputy assistant administrator for the Office of Administration and
Resource Management, on May 16, 2013, the EPA has taken immediate, aggressive actions to address
the situation even before receiving recommendations for action in your forthcoming early warning letter.
Once the EPA receives that letter, we will quickly review any recommendations ofthe OIG that we have
not yet addressed. We look forward to working with OIG staff on remedying the immediate concerns at
the facility and determining th e need for new and enhanced policies and procedures to prevent a similar
si tuation from occurring again at the EPA.

As detailed below, since receiving these briefings, the EPA has :
   • 	 issued a stop-work order to Apex Logistics, LLC, ensuring there will be no further access to the
       site by Apex personnel and that no further costs will be incurred under the Apex contract;
   • 	 re-secured the facility, including rekeying all exterior doors and remediating key worker safety
       concerns;
   • 	 inventoried and catalogued 100 percent of the items at the warehouse, excluding one class of
       furniture that requires the assistance of the manufacturer for cataloguing;
   • 	 identified, marked and segregated all surplus furniture, which will enable the reuse of the 

       furniture by the General Services Administration; 

   • 	 drafted new standard operating procedures for interacting with and maintaining the warehouse,
       which the EPA intends to implement expeditiously;
   • 	 consulted with the U.S. Department of State and implemented immediate changes to existing
       procedures to ensure safe handling of expired or no longer needed government passports;
   • 	 initiated an investigation and review by the agency's Breach Evaluation Team to evaluate any
       potential concerns with the safeguarding of personally identifiable information and to make
       recommendations as to how to address any breach or potential breach ofthe EPA's procedures to
       protect such information;
   • 	 commenced a review of the EPA's records program to identify and strengthen any policies and
       procedures addressing the transport, storage, access and disposition of agency records, including
       records that contain personally identifiable information;

13-P-0272                                       Internet Address (URL) • http://www.epa .gov
            RecycledJRecyclable • Printed with Vegetable Oil B ased Inks on 100% Postconsumer, Process Chlorine Free Recycled Paper
                                                                                              13-P-0272



   • 	 began a review of EPA personnel to determine whether any agency employees failed to perform
       their duties and, if so, what type of remedial or disciplinary action is appropriate; and
   • 	 ordered an agencywide review of warehouses and storage facilities, incl uding directions to EPA
       senior managers to evaluate the conditions at all warehouses and storage facilities by the close of
       business on Thursday May 23,2013.

Chronology of Actions by the EPA to Date

Actions Taken on Friday, May 17, 2013
Upon receiving a briefmg by the OIG, the EPA took immediate action to remedy this situation. On
Friday, May 17, 2013, OARM Principal Deputy Assistant Administrator Nanci Gelb and senior agency
officials from OARM conducted a site visit to the warehouse and developed a plan of action. At 11 a.m.
on May 17, 2013, OARM officials convened a meeting of senior managers from OARM, including
those from OARM's Office of Administration, Office of Acquisitions Management and Office of Grants
and Debarment; the Office of General Counsel; the Office of International and Tribal Affairs; the Office
of Environmental Information; and the Office of External Affairs and Environmental Education to
discuss each office's role and responsibilities in that action plan. Each office or sub-office left the
meeting with clear direction on immediate steps to take in response to the warehouse conditions.

By 4 p.m. on May 17,2013, the EPA had taken critical actions to remove Apex Logistics, LLC
employees from the warehouse and to secure the site. The agency issued a stop-work order to Apex,
immediately preventing Apex from completing any additional work under the contract or from incurring
any additional reimbursable expenses under the contract. The Office of Acquisitions Management also
determined this was the only contract Apex held with the EPA. The EPA's security staff confiscated the
EPA contractor badges that had been issued to Apex personnel that were onsite and escorted those
personnel off the premises. Contractor employees not at the site on May 17, 2013, had their access
badges terminated remotely on May 17, 2013, as well. The EPA rekeyed all perimeter doors to ensure
no future access by Apex personnel. The agency evaluated the security-camera system at the facility,
determined that the most recent eight days of security-camera recordings were stored on a computer
hard drive at the facili ty and conducted an initial review of the recordings. The EPA reset the warehouse
intrusion-detection system to ensure that the system could be activated and deactivated by only the EPA.
The EPA also contacted the warehouse landlord to update the landlord on the situation and seek
assistance in controlling the site. The agency began the process of cataloguing and indexing the contents
of the warehouse. Finally, the agency secured the services of a new contractor and several staff of the
EPA to assess the facility during the weekend of May 18-19, 2013. Those actions are discussed below.

In addition to the efforts to secure the facility on or before Friday May 17, 2013, the EPA took key
actions within the agency to address information security issues identified by OIG. OITA contacted the
Department of State to determine an interim standard operating procedure for the decommissioning of
expired or no longer needed government passports for agency personnel. Beginning immediately, the
EPA will send expired or urmeeded government passports to the Department of State for destruction,
until such time as the agency can put in place a passport decommissioning process with the appropriate
safeguards. OEI determined that the presence of documents containing personally identifiable
information at the warehouse, when considered in light of the other conditions at the warehouse,
warranted referring the matter to the EPA's Breach Evaluation Team. The Breach Evaluation Team
comprises EPA senior career employees and is tasked with evaluating any breaches or potential breaches
of the EPA's procedures for safeguarding personally identifiable information and determining
appropriate responses to any breach or potential breach. OARM's Office of Grants and Debarment
began the process of determining whether the problems identified with Apex's performance of this
contract provide grounds for a suspension action. If suspended, Apex would be temporarily excluded
from receiving future contracts from the EPA and other federal agencies.

Actions Taken by the EPA on Saturday, May 18,2013, and Sunday, May 19,2013
EPA personnel worked at the warehouse with new contract employees during the weekend of May 18­
19, 2013 , to continue to evaluate and secure the site . The EPA initiated a health and safety review of the
warehouse. The agency removed all propane tanks that had been brought onsite by Apex employees and
secured those tanks outside of the building. Finally, the agency reoperationalized the facility's eye wash
station for the safety of the workers in the building.

The EPA also made significant progress creating a new inventory of the warehouse ' s contents. By the
end of the weekend, the agency had numbered and labeled all aisles and shelves in the warehouse. The
EPA completed an inventory of all items in the warehouse, except for stationery and a single class of
furniture that must be inventoried by the manufacturer. One hundred percent of that inventory was
entered into a spreadsheet to enable accurate tracking moving forward. Staff from OARM identified,
marked and segregated all surplus furniture, i.e. furniture no longer needed by the EPA. By designating
serviceable furniture as surplus, the EPA begins a process where that furniture will be made available to
other agencies through the General Services Administration. With regard to stationery, the EPA
completed an inventory of approximately 75 percent of the stationery on site. Finally, the agency
evaluated all of the boxes of documents on site to assess whether the boxes contained personally
identifiable information. The review confirmed that some boxes did contain personally identifiable
information in a range of dates. Any boxes that contained even a single document containing personally
identifiable information were moved to a gated, locked and secured section of the warehouse. All
information learned about the presence of personally identifiable information has been and will continue
to be conveyed to the Breach Evaluation Team for consideration.

Actions Taken by the EPA on Monday, May 20, 2013
The EPA continued its aggressive response on Monday, May 20, 2013. On that day, the agency
completed its inventory of all stationery at the warehouse. With the inventory of the stationery
completed, the agency finalized the spreadsheet cataloguing an inventory of all items at the site, except
for one type of furniture for which assistance from the manufacturer is required. The EPA began the
development of a new security plan for the facility that focuses on both internal and external security
measures. This plan will include specifying locations where additional cameras will be placed, how
many days of recordings will be preserved for each camera, how often the recordings will be reviewed
and any other appropriate security measures. Once the new security plan is in place, the EPA will
develop critical standard operating procedures to implement the plan. The EPA also neared completion
of its review of the numerous examples of government form 5100, which is the form the agency uses to
request action by Apex under the contract. The EPA will use these forms to help identify the source of
the various documents and furniture contained at the site. Finally, the agency continued work on the
finalization of interim SOPs to safeguard agency documents and resources until permanent SOPs can be
established. The SOPs address operational and management procedures and specify internal controls
relating to inventory, acquisition, performance reviews and management.

The EPA also continued to take actions and evaluate possible actions with regard to Apex Logistics, the
contractor at the facility. While the EPA's stop-work order would prevent Apex from conducting
additional work through the current end date of the contract of May 28, 2013, the agency began a legal
analysis to determine whether the EPA could terminate the contract for cause before May 28, 2013.
OARM ' s Office of Grant s and Debarment and Office of Acquisitions Management continued to work
with OGC and OIG to determine whether suspension or debarment of Apex from future government

                                                     3
13-P-0272
                                                                                              13-P-0272


contracts can be supported by the facts available. The EPA reviewed agency background investigations
of Apex employees to help inform future actions. The agency took control of any computers that
appeared to have been used by Apex personnel. OARM will work with OEI and OIG to recover any
information relevant to the situation that is contained on those computers.

Actions Taken by the EPA on Tuesday, May 21,2013
On Tuesday, May 21 , 2013, the EPA took additional steps to address the situation. At 8 a.m. OARM's
Gelb reconvened a group ofsenior agency officials, including OARM senior officials and those from
OARM' s Office of Administration, Office of Acquisitions Management and Off1ce of Grants and
Debarment as well as those from OGC, OEI and OEAEE. Each office reported on their actions taken to
date and key next steps. At 9 a.m. Gelb and representatives from OGC, OEI, OEAEE, OITA, the Office
of the Administrator and the Office of Congressional and Intergovernmental Relations briefed me on the
agency ' s actions in response to the briefings by OIG, the current conditions of the warehouse and the
plan for continued action.

At that meeting, I directed those present to evaluate the conditions at all warehouses and storage
facilities used by the EPA and to take swift action to remedy any concerns identified with the conditions
at any of those facilities. Later that day, OARM directed all assistant regional administrators to ensure
that all organizations with warehouse or storage facilities conduct a thorough walk-through of their
facilities and report the results of that walk-through to OARM by the close of business on Thursday,
May 23,2013. The assistant regional administrators were instructed that the walk-through should ensure
that:

   1) there are standard operating procedures and inventory systems in place that account for 100
        percent of all equipment, vehicles, materials and supplies that are located in the facility;
   2) any and all equipment, vehicles, materials and supplies are stored in an efficient, organized and
        safe manner;
   3) 	 there are standard operating procedures that clearly define the roles and responsibilities of all
        personnel- either contractor or federal employee -that are responsible for managing and
        operating the warehouse or storage facility;
   4) for any contractor-run warehouse or storage facility, that there are procedures in place that
        ensure robust federal oversight of the contract;
   5) all safety and health requirements for the facility are in place and that all s afety and health
        equipment is operational;
   6) any materials that are stored in the warehouse or storage facility that contain personally
        identifiable information are stored in a secure and safe location;
   7) there are standard operating procedures in place for storage, handling and disposal of personally
        identifiable information; and
   8) adequate security procedures are in place to ensure that the perimeter and interior space of the
        warehouse or storage facility are adequately secured and protected.

Later in the evening of May 21, 2013, Acting Principal Deputy General Counsel Kevin Minoli
forwarded these instructions to the agency's regional counsels and deputy regional counsels and asked
those individuals to assist the assistant regional administrators in completing thi s review. Within the
EPA' s headquarters similar instructions were provided to OlE, the Office of Research and Development,
the Office of Solid Waste and Emergency Response and the Office of Air and Radiat ion. OARM and
OGC will provide support to those offices as they examine any warehouse or storage facilities within
their control.


                                                    4

In addition, OEI continued its effort to identify and implement improvements to the agency's
management of records, including records that contain personally identifiable information. In particular,
OEI intends to review and strengthen, if necessary, existing policies and procedures addressing the
sensitivity level of records and the identification of such before the transport of those records to a
storage or disposal facility. OEI will also ensure that safeguards for protecting personally identifiable
information are a part of future records trainings for agency employees. They will work with property
management and the Facilities Management Services Division in OARM to identify the established
processes for safeguarding personally identifiable information in warehouses and storage facilities and
improve those processes where necessary. Finally, OEI will work with the Facilities Management
Services Division to revise standard operating procedures to ensure every EPA form 5100 is properly
marked, whether for storage or shredding, when the form denotes that the files subject to the Form
contain personally identifiable information or other sensitive information.

The EPA also continued its efforts at the warehouse facility on Tuesday May 21,2013. The agency
completed its safety and health audit of the facility to ensure that all of the worker health and safety
issues identified by OIG employees or EPA employees had been addressed. Renee Page, director of
OARM's Office of Administration, conducted a walk-through of the facility for Gelb and Minoli. The
EPA continued work on a contract for interim logistics support until a permanent contract is awarded in
June 2013. Finally, OARM began a review ofthe performance of employees responsible for the
oversight and monitoring of the contractor's performance and will determine the appropriate response.

Conclusion
I deeply appreciate the strong relationships we have with OIG and your continued assistance to the EPA.
As can be seen from the EPA's aggressive, comprehensive and coordinated response, the EPA took very
seriously the conditions at the warehouse identified by OIG. During the past seven days, the EPA has
taken significant steps to eliminate the conditions of concern identified by OIG in its initial briefing of
agency leadership. I and agency staff will continue to update you and OIG staff on agency actions in the
days ahead and will follow up with you as we receive any additional recommendations from your office.

The EPA is committed to addressing the previous conditions at the warehouse and implementing
institutional protections to ensure those conditions do not recur at this facility or any other used by the
agency. We look forward to working with OIG on any additional recommendations for action that you
may have.


cc: 	 Craig Hooks
      Michelle DePass
      Malcolm Jackson
      Brenda Mallory
      Jose Lozano
      Tom Reynolds
      Arvin Ganesan
      Gwendolyn Keyes-Fleming
      Kevin Mi noli
      Nanci Gelb
      Charles Sheehan
      Renee Wynn
      Roxanne Smith
      Nancy Grantham

13-P-0272                                             5
                      13-P-0272


Laura Vaught
Renee Page
Katrina Cherry
Robert Adachi
Craig Ulmer




                 6

                                                                               Appendix B

                                    Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for International and Tribal Affairs
Principal Deputy Assistant Administrator for Administration and Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0272


